Review of the Case Activity Tracking System (CATS), Report No. OIG-AMR-28
Review of the Case Activity Tracking System (CATS) Report No. OIG-AMR-28
Inspector
General Letter
Background
Objectives, Scope, and Methodology
Results
of Review
Recommendations
Management
Response
Appendix
Inspector
General
National Labor
Relations Board
Washington, DC 20570
September 15, 1999
I hereby submit a Review
of the Case Activity Tracking System (CATS), Report No. OIG-AMR-28. CATS
is designed to replace the Casehandling Information Processing System
(CHIPS) which consists of several unrelated systems, both manual and
electronic, which are used to collect and compile performance
measurement data for field offices and at Headquarters. In addition to
providing an integrated system to collect casehandling data, CATS
reengineers and standardizes business processes, provides tools to
increase productivity, and serves as the vehicle by which the agency is
implementing an enterprise-wide computing and telecommunications
infrastructure to serve all 51 field offices and Headquarters.
This review of the CATS
automation initiative was conducted by Burke Consortium, Inc. in April
and May 1999. The review evaluated actions taken in Fiscal Year (FY)
1994 through May 1999 that affect current status and future deployment
of CATS.
The NLRB has invested
approximately $7.6 million on CATS design, development, and deployment
between FY 1995 and FY 1999. Funding each year, however, has been
unpredictable and has ranged from a high of $2.1 million in FY 1997 to a
low of $600,000 in FY 1998. The implementation plan for CATS is not
aligned with the budget formulation process. Resources needed to provide
the supporting hardware, software, and communications infrastructure
have not been identified. Plans were developed and executed on a
year-to-year basis to reflect the amount of funds available. The
development of a credible three to four year deployment, transition, and
maintenance plan which provides options for management decisions given
budget, schedule, and quality constraints, is needed to bring CATS to
completion.
A combination of budget
instability and the contracting mechanism may have contributed to high
turnover of contractor personnel assigned to the CATS project. From the
inception of the CATS development effort in June 1995, the contract has
had three CATS program managers and the project has experienced a 100
percent turnover of developer staff in the past four years. The complete
turnover of personnel has negatively impacted productivity because the
project lost personnel who had knowledge about CATS design and NLRB
processes.
CATS deployment has
taken place or is planned for 25 field sites during FY 1999.
Installation and training in all field offices and two Headquarters
offices are anticipated to be substantially completed in June 2000. The
phased installation of CATS at Headquarters to replace existing case
handling systems is in the planning stage. Complete analysis and
redesign of Headquarters systems in other Headquarters offices and
migration into the CATS database will take place after CATS has been
implemented in all 51 field offices.
A significant number of
errors were made during the initial entry of case data. The
implementation of planned edits and increased use of the system by field
personnel should reduce the error rate in the future.
Until full field office
deployment of CATS, Monthly Election Reports and the Annual Report will
require the merging of data from CATS and CHIPS. Personnel in the
Information Technology Branch (ITB) have been assigned responsibility to
develop methods and procedures necessary to combine data from CHIPS and
CATS to support production of Monthly Election Reports, but that work
has not been completed because of inaccuracies found in the CHIPS and
CATS data being input by the field offices. The query necessary to
output CATS data in a CHIPS-like format is currently under development.
The capability to merge data from CHIPS and CATS to produce the Annual
Report has not been developed.
Recommendations
addressing these findings can be found on pages 14, 15, and 16 of this
report.
An exit conference was
held on August 17, 1999 with the Chief Information Officer and officials
from the ITB to discuss the findings and recommendations. The CIO
submitted written comments on the draft report. He did not disagree with
the findings and recommendations. His comments are presented in their
entirety as an appendix to this report.
Jane E. Altenhofen
Inspector General
Background
The National Labor
Relations Board (NLRB) administers the principal labor relations law of
the United States, the National Labor Relations Act of 1935, as amended,
which is generally applied to all enterprises engaged in interstate
commerce, including the United States Postal Service, but excluding
other governmental entities as well as the railroads and the airline
industries. The Agency performs its mission by: (1) conducting secret
ballot elections to determine if a group of employees wishes to be
represented, for collective bargaining purposes, by a labor
organization; (2) adjudicating representation issues if the parties
cannot reach agreement; (3) investigating charges of unfair labor
practices filed by the public with the Agency; (4) prosecuting, if the
parties cannot settle and reach an agreement, those cases of unfair
labor practices which the Agency determined to have merit; and (5)
adjudicating those unfair labor practice cases which the Agency
litigates.
In a sense, NLRB is two
entities within one Agency. The General Counsel investigates unfair
labor practices and litigates before the Board side of the Agency. The
Board is judicial in nature and includes Administrative Law Judges whose
decisions may be appealed by any of the parties, including the General
Counsel, to the five-member Board appointed by the President. Board
decisions may be appealed, other than by the General Counsel, to the US
Courts of Appeals and the Supreme Court. By delegation from the Board,
the General Counsel represents the NLRB in those cases and in matters
before Bankruptcy and District Courts. Regional Offices coordinate
secret ballot elections under the supervision of the Board, investigate
unfair labor practice charges, and prosecute complaints before the Board
under the authority of the General Counsel. The NLRB responds to matters
brought before it and does not initiate cases on its own. In Fiscal Year
(FY) 1999, the Agency employed about 1,860 people at Headquarters and in
regional, sub-regional, and resident offices (hereinafter referred to as
field offices). The Agencys FY 1999 appropriation was $184 million.
Approximately 30,000 charges of unfair labor practices and 6,000
representation petitions are filed with the NLRB each year.
The Case Activity
Tracking Subcommittee (Subcommittee) was established in February 1994 to
develop requirements for improving and expanding the automation of case
activity. Initial subcommittee members included: a representative from
the Information Technology Branch (ITB); a contractor, Synetics,
Incorporated; representatives from Regional Offices; and representatives
from each Headquarters program office of the Board and the General
Counsel. The Case Activity Tracking System (CATS) was planned to replace
separate systems, both manual and electronic, used to collect and
compile performance information for field offices, the Division of
Judges, the Office of the Executive Secretary, and Headquarters
components under the control of the General Counsel.
In addition to
collecting and compiling performance data, CATS reengineers and
standardizes the business processes for case assignment and workload
monitoring in the NLRBs field offices. CATS provides tools to
increase the productivity of professional and support staff employees
who handle the majority of NLRB cases by: providing templates for
standard responses to both parties; associating and maintaining party
names and addresses with cases and correspondence; and automating
statistical reporting requirements. CATS provides casehandling
management tools and collects data for each contact with the public. The
CATS project also serves as the vehicle by which the agency is
implementing an enterprise-wide computing and telecommunications
infrastructure to serve all 51 field offices and Headquarters.
Synetics deliverables
included the following documents.
Project Management
Plan 08/31/94
Functional Requirements Document 12/18/94
System Requirements Document 01/29/95
Implementation Plan 02/19/95
Contractor deliverables:
(1) described needs, functions performed, and current procedures within
the NLRB for case management and legal research; (2) defined the
specific requirements for automating case management and legal research;
(3) identified the overall, technical, and system-level requirements for
an automated case tracking, management, and legal research system; (4)
defined alternative solutions; and (5) identified implementation
alternatives. Synetics final product was delivered in 1995.
The NLRB contracted with
EDS, Incorporated (EDS) in May 1995 to develop and implement CATS.
Approximately $7.6 million in funding has been spent on CATS from
inception through April 1999. The Agency planned to deploy CATS in 25
field offices in FY 1999. As of the end of April 1999 CATS had been
deployed in 11 field offices.
Objectives, SCOPE, and Methodology
This review was
conducted to:
Identify how past
actions have affected the current implementation;
Review the
thoroughness and adequacy of plans for actions to complete the
project;
Determine if
planning, design, implementation, migration, and deployment
activities have been accomplished as planned;
Review the
architecture and assess the degree user requirements are being met;
and
Identify the overall
scope of the project as it was conceived, and determine if the
current scope is consistent with original plans.
This review was
performed during April and May 1999, by Burke Consortium, Incorporated
at NLRB Headquarters. Participants and stakeholders were interviewed,
including the Chief of the ITB who serves as the Chief Information
Officer (CIO). Documents pertaining to CATS were reviewed, research was
conducted to gather data, and an abbreviated demonstration of CATS was
provided by a Regional Director. All data was integrated, reviewed for
consistency, and analyzed to form the basis of the results and
recommendations provided herein.
This review assessed the
design, development, implementation, and management of CATS during the
period FY 1994 through May 1999. This included the deployment of CATS at
the first 11 field offices: Kansas City, St. Louis, Denver, Cincinnati,
Ft. Worth, Houston, Boston, Newark, Brooklyn, Manhattan, and Chicago.
Results of Review
Funding
The NLRB has invested
approximately $7.6 million on CATS design, development, and deployment
from FY 1995 through FY 1999. Table 1 provides the spending history by
fiscal year. The table shows that CATS funding decreased from $2.1
million in FY 1997 to $600,000 in FY 1998, a decrease of 71 percent.
This decrease occurred during a critical phase when increased resources
should have been allocated in order to effect a smooth implementation of
the system.
ITB had two budget
categories for discretionary funds: (1) CATS Modernization and Year 2000
Compliance (CATS/Y2K); and (2) Information Technology Maintenance. The
CATS/Y2K category includes: functional design, development, and
implementation of CATS software; business process reengineering and
development; and modernization and implementation of the NLRBs
enterprise-wide computing and telecommunications infrastructure.
Including all of these initiatives in a CATS/Y2K budget category creates
the impression that more money is being spent on CATS than is actually
being spent. The CIO has implemented a comprehensive expenditure
tracking methodology to ensure that future CATS costs are segregated to
provide separate identification of resources specifically associated
with CATS functional design, development, implementation, and training.
The implementation plan
for CATS is not aligned with the budget formulation process. Plans were
developed and executed on a year-to-year basis to reflect the amount of
funds available. Therefore, resources needed to provide the supporting
hardware, software, and communications infrastructure necessary for
ultimate success have not been identified. Hardware, software, and
communications infrastructure needs include: data migration; interim
integration with CHIPS; replication and synchronization of data among
Headquarters and the field offices; and system operations, maintenance,
and support. Current resources are being focused on installation and
training. CATS will eventually support 2,000 people in 51 field offices
and at Headquarters. Resources are insufficient to permit successful
transition and implementation of a system of such scope and magnitude.
Over 300 change requests have been identified for resolution by CATS
users, yet the CATS contractor development staff has been reduced by 37
percent in the past 18 months. Since availability of funds drives
resolution of these issues, the timeframe for resolution can not be
predicted with a reasonable degree of accuracy. Nevertheless, high
priority status has been assigned to requested changes that affect
significant data and the overall integrity of CATS. Lower priority
defects, which range from less significant data issues to the
improvement of user-friendliness are being delayed because of inadequate
fiscal resources.
Contractor Employee Turnover
The ITB and the CATS
project experienced extreme financial instability between FY 1994 and FY
1998. As seen in Table 1, CATS funding has ranged from a low of $600,000
in FY 1998 to a high of $2.1 million in FY 1997. Repeated budget
instability resulted in the inability to properly develop credible
strategic and programmatic plans that are essential to execution and
implementation of CATS. Although ITB funding was increased to $9 million
in FY 1999, over $4 million was allocated to modernize the computing and
telecommunications infrastructure necessary to provide a foundation for
CATS. Table 2 graphically depicts the repeated disruptive funding
situation.
Budget instability may
have contributed to high turnover of contractor personnel assigned to
the CATS project. From the inception of the CATS development effort in
June 1995, the contractor has assigned three CATS program managers and
the project has experienced a 100 percent turnover of developer staff in
the past four years. The complete turnover of personnel has negatively
impacted productivity because the project lost personnel who had
knowledge about CATS design and NLRB processes. Contractor turnover
adversely impacted the ability of the Program Manager and the Cases Task
Group to sustain momentum, communicate requirements, and provide
long-term guidance. Turnover has contributed to longer times for
deployment and developing solutions for aggregating field data into a
central information repository.
A long-term contract is
not in place for CATS development. Tasking to EDS is provided on an
annual basis through a Defense Information Systems Agency
indefinite-quantity/indefinite-delivery contract for defense enterprise
integration services. During FY 1999, the EDS staff will be further
reduced by 25 percent. Because there is no long-term contract in place
and task planning is conducted on an annual basis, EDS is constrained in
planning and staffing for the long-term requirements of CATS. Lack of a
long-term contract is a disincentive that hampers the contractors
ability to assemble a team of people that can meet the needs of the
program for the long term because the contractor doesnt have any
assurance of work or commitment beyond the current fiscal year.
Strategic Planning
Funding for CATS has
been extremely unpredictable which limited the Agency's ability to
develop credible long-term strategic plans that integrated technical
requirements and financial resources needed. Resources needed to support
the strategic planning function for future CATS implementation and
operation have not been determined. No contract or other resources are
in place to provide assistance to the CATS Program Manager for the
strategic planning necessary to support the completion of CATS
deployment, transition, operation, or maintenance. Many of these
critical functions are being delayed because of deliberate decisions to
give higher priority and resources to other areas, primarily personnel,
rather than CATS. The development of a credible three to four year
deployment, transition, and maintenance plan which provides options for
management decisions given budget, schedule, and quality constraints, is
needed to bring CATS to completion.
Functions needed to
complete the CATS project are not in place. Full implementation of CATS
will require the replication of data among Headquarters and field
offices. Replication and synchronization of data are key functional
requirements of CATS since it is the process by which data entered at
the field offices and at Headquarters is exchanged and resolved.
Replication for CATS is not yet implemented. Resources allocated to this
task are insufficient to develop the capability for the level of
replication and synchronization needed to support the full
implementation of CATS. System management of CATS will require a
technical and management infrastructure and sufficient skilled and
trained personnel to sustain a large inter-networked enterprise system
encompassing all geographic locations. Current resources are
insufficient to perform system administration and management of 33 file
servers in 51 locations.
Transition of data from
CHIPS to CATS and entry of additional data that CATS requires is a
labor-intensive process and is the responsibility of the field offices.
The ITB provides each field office with transition guidance and
recommended methods. A Deployment Guide and supporting documents are
provided at least two months in advance of CATS deployment to each field
office. This guidance includes recommended transition plans and
worksheets to assist field offices assign responsibility for data entry.
Because each field office is different, the guidance is intended to be
tailored by each office to meet unique needs and operational processes.
Aside from the guidance provided by the ITB, no provision has been made
to provide assistance to field offices with the transition needed to
effect full implementation of CATS. Advance transition planning and
post-deployment assistance is needed to help field offices complete the
transition in a timely manner and in a way that maintains the accuracy
and integrity of case data. The ITB provides technical assistance
necessary to implement CATS, but field offices need additional
assistance to change business processes to accommodate CATS and help
input legacy data.
Deployment
CATS deployment
schedules are aggressive and ambitious. Deployment is phased to complete
installation in as many field offices, as soon as possible, with scant
resources. Before CATS can be deployed, the supporting infrastructure of
each field office is modernized with the installation of an upgraded
local area network server, personal computers, office automation
software, and access to a wide area network. CATS is subsequently
deployed (i.e. training is conducted and the office goes on line),
usually within weeks after installation of the infrastructure. CATS
deployment was accelerated because of ITB's desire to get the system out
to the field offices and perceived pressure from OMB. Meeting this
schedule is dependent on the extraordinary effort of a small number of
key personnel. Deployment has taken place or is planned for 25 field
offices (16 regional offices, 8 resident offices, and 1 sub-regional
office) during FY 1999. CATS is being deployed at the rate of two to
three sites per month. Installation and training in all field offices
and some headquarters offices is targeted for completion by the third
quarter of FY 2000.
Five Regional Offices
and one Resident Office served as test installations for the initial
deployment of CATS. Deployment at these initial sites was undertaken
prior to controlled data testing or correction of some known
deficiencies because resources were not available to perform those
functions in the time frame necessary to meet the deployment schedule.
The ITB originally
estimated that field offices would need between two and three months to
update converted data and load additional case data into CATS. In the
initial five field offices, the time required for data updating and
loading has taken between five and nine months. The ITB projects that
based on the experienced gained in the initial offices, future field
offices will require between four and six months to update and load
additional case data into CATS. The original estimate was increased
because contract support was not being used and support staff and
overtime resources were limited. Of the 11 field offices that have
received CATS by May 1999, a few have fully updated all representation
case (R Case) data, but none has completed the updating of Unfair Labor
Practice cases (C Case) in CATS.
There are approximately
815 case data fields in CATS that require user data entry (596 C case
and 219 R case data fields). Approximately 226 of the data fields will
eventually be entered by Headquarters offices. Of the 815 data fields,
approximately 300 are selected by the user from pick lists. Most C Case
records use approximately 51 fields, 32 of which are selected from pick
lists or are checkboxes, and 7 of which are dates. Most R Case records
use approximately 63 fields, 36 of which are selected from pick lists or
are checkboxes, and 8 of which are dates. The majority of C Cases are
filed, investigated, found to be without merit, and are then withdrawn
or dismissed and closed. All cases must be docketed, which involves,
among other things, the entry (often from pick lists) of the names and
addresses of the parties and participants. Docketing takes approximately
10 minutes. In addition to docketing, C Cases require approximately 18
data fields to be entered over the life of the case. Approximately 30 C
and R Case data fields are transferred from CHIPS into CATS. Field
offices will enter data into both CATS and CHIPS until the transition to
CATS is complete at that location. This creates a temporary workload
increase for field offices that are already understaffed.
The phased installation
of CATS at Headquarters to replace existing case handling systems is in
the planning stage. With the exception of two offices, Office of
Representation Appeals and Office of Appeals, complete analysis and
redesign of Headquarters systems and migration into the CATS database
will take place after CATS has been implemented in all 51 field offices.
CATS will be used by Headquarters offices to gather information about
cases that have been forwarded from the field and to track the status of
current cases. The CATS Headquarters database is envisioned to integrate
and consolidate databases from all the field offices. Although status
tracking is the most prevalent activity performed at Headquarters, most
sections of the agency perform different functions. Requirements
definition, design, development, installation, and data conversion will
need to be completed for each separate Headquarters office. Thorough
integration testing will need to take place to ensure the data entry
processes at the field offices interact properly with data entry
processes at the Headquarters offices. The Office of Representation
Appeals (ORA) will be the first Headquarters office to receive CATS.
Analysis and design for CATS implementation in ORA is complete and a
prototype is expected to be installed in November 1999. The Office of
Appeals is the second Headquarters office to participate with the ITB to
perform a requirements analysis for CATS implementation. Ten
Headquarters offices have case handling information databases tailored
for their unique requirements. Preliminary projections by the ITB are
that it will take between 12 and 18 months per office to tailor CATS to
meet their unique needs and convert data from existing databases. Funds
have not been allocated specifically for this purpose pending the
enaction of the FY 2000 appropriation. The CIO plans on Headquarters
offices' systems being completed in FY 2001.
Data Integrity
Data integrity and
accuracy will be used to judge whether the organizations' implementation
of CATS is successful. This data serves as the basis for Monthly
Election Reports and the Annual Report, both statutory requirements of
the NLRB. A key requirement is to ensure that production of these
reports is not disrupted. An Annual Report Subcommittee was established
by the CATS Committee to provide the requirements for this important
function and review the content of the Annual Report. The ITB
recommended abbreviation or elimination of some of the elements and
tables included in the Annual Report to make transition to CATS reports
less complex. The Subcommittee recommended not changing the format. The
Subcommittee is not currently active, having met most recently in 1997.
The Subcommittee plans to reconvene once CATS is further implemented.
Employees from field
offices and the ITB have reported problems and made suggestions to
improve CATS operations and data accuracy. Due to a lack of resources
the Agency decided to concentrate modifications on data accuracy issues.
If accurate data is not put into CATS, the system will generate
inaccurate reports, including the reports field offices use to manage
cases. In addition to system enhancements it is believed that CATS data
will be more accurate than CHIPS data because management intends to use
the data to manage live cases, increasing the timeliness of data review.
The ability of personnel
in the field offices to input proper and accurate data is vital. For
some functions, CATS provides data entry assistance to users by
automatically opening related windows which require further data entry
based on initial input. Warning messages are also provided to notify
users of missing data. This assistance is not comprehensive, but
incorporation of additional business rules is planned to be included in
future releases of CATS. The ITB is currently developing a Missing
Action Report to help field offices and Headquarters identify data
fields that should be filled based on other data entered into CATS. This
report, similar to the Error Report produced by CHIPS, can be generated
and reviewed by the field office responsible for the accuracy of the
data and will assist in identifying data input deficiencies. Case
status, which is a criterion in the generation of many CATS statistical
and standard reports, is derived via data entry. Case status is
displayed in CATS on the case card. Incorrect data entry will often
result in an incorrect case status, which is anticipated to be
scrutinized by key case management personnel and the Board Agent
assigned to the case. Field personnel responsible for case data may
perform periodic reviews of the data using the case card, the query
wizard tool and standard or custom reports. Field offices anticipate
that the Division of Operations-Management will periodically review case
data as an added data integrity check. However, no plans, directives,
instructions, uniform processes or procedures are in place to focus on
data accuracy. Resources have not been specifically allocated to
Headquarters or to field offices specifically to audit the accuracy of
data.
Only a small amount of
data is being converted directly from CHIPS to CATS. The decision not to
load CATS with data already contained in CHIPS was made for several
reasons: (1) a significant amount of data contained in CHIPS is believed
to be inaccurate; (2) data elements that influence certain functional
operations of CATS are derived from data not available in CHIPS; (3) the
effort required to validate CHIPS data is believed to be just as labor
intensive and time consuming as re-entering data into CATS; (4)
resources are insufficient to fund the development of data conversion
and filtering software; and (5) conversion of most or all CHIPS data
would not have eliminated the need to review all converted case data,
since a significant amount of CATS data does not exist in CHIPS and
needs to be entered manually. For these reasons only essential data for
which there is a degree of confidence is being migrated directly into
CATS from CHIPS.
Reporting Capabilities
CATS automatically
generates statistical and other casehandling reports that are used
regularly in all field offices to manage cases. The ITB anticipates
developing reports to be used regularly by Headquarters offices. These
reports will supplement monthly statistical reports and standard
reports, such as case lists, that are already available. Additional
reports are currently being developed to meet the needs of field
offices. After CATS is fully implemented, field office personnel will no
longer need to spend hours gathering information and tabulating numbers
for monthly statistical reports and other statistical purposes.
Monthly Election Reports
and Annual Report
The data needed to
produce Monthly Election Reports is contained in CATS, but the reports
have not yet been developed or implemented. Due to the summary nature of
the reports, they can not be entirely generated by CATS until it is
installed in all field offices and all necessary data is entered. In the
interim, data from CATS and CHIPS must be merged to produce Monthly
Election Reports. Personnel in the ITB have been assigned responsibility
to develop methods and procedures necessary to combine data from CHIPS
and CATS to support production of these reports, but that work has not
been completed because of inaccuracies found in the CATS data being
input by the field offices. The query necessary to output CATS data in a
CHIPS-like format is currently under development.
The FY 1998 Annual
Report is being produced based solely on data contained in CHIPS. The FY
1999 Annual Report will require the merger of CHIPS data from some
regions and CATS data from others. This capability has not yet been
developed. Roles and responsibilities for producing the Annual Report
are disbursed throughout the NLRB. The Statistical Services Unit in the
ITB produces data tables contained in the report. The Division of
Information, produces four chapters: Chapter II, Board Procedure;
Chapter III, NLRB Jurisdiction; Chapter IV, Representation Proceedings;
and Chapter V, Unfair Labor Practices. Other offices handle chapters
related to their discrete responsibilities. For example, the Injunction
Litigation Branch writes the Injunction Litigation chapter, the Supreme
Court Branch writes the Supreme Court Litigation chapter, and so on. The
Administrative Services Branch oversees the coordination and production
of all chapters and serves as the liaison with the Government Printing
Office to coordinate printing. However, there is no single person
charged with oversight of the Annual Report at the Agency Level.
Management and Oversight
A committee of
representatives from each functional area of the NLRB was established to
provide input into the functional requirements for CATS. This committee,
known as the CATS Committee, was chaired by a representative of the
Division of Operations-Management. The committee was established to
gather requirements from program officials who understand the agency
mission, processes, and business practices. The committee decided to
focus CATS on meeting the needs of the field offices first, then focus
on meeting the needs of Headquarters. The Cases Task Group, a subset of
the CATS Committee, was formed to guide development of CATS and
represent the interests of the entire CATS Committee. The Cases Task
Group consists of: the CATS Project Manager from the ITB; a Regional
Director; a Regional Office Manager, who was recently promoted to a
position in the Division of Operations-Management; and a Senior Manager
from the Division of Operations-Management. The Cases Task Group
identified the CATS data requirements for field offices and
Headquarters. The CATS Committee was not chartered and has not met
collectively in over a year. The Cases Task Group has continued periodic
consultation on an as-needed basis with individual CATS Committee
members during the CATS development and deployment phases, although
there is no evidence of regular communication with all CATS Committee
members collectively.
The Cases Task Group
members perform group functions as a collateral duty in addition to
their normal responsibilities. Much of the success of CATS can be
directly attributed to the teamwork and dedication of the Cases Task
Group. The groups span of responsibility, however, is not
commensurate with its size or resources. The Cases Task Group develops
functional requirements, oversees CATS development, participates in
deployment, performs independent verification and validation testing,
analyzes problems and suggestions provided by the field offices, and
recommends prioritization for the resolution of defects and development
of enhancements. Two members of the Cases Task Group serve on the CATS
Change Control Board which reviews technical requirements and changes
along with proposed defect resolutions and enhancements. The Change
Control Board assigns final priorities for all defect resolution and
enhancement-related work and approves tasks to be completed for future
CATS releases. The Cases Task Group has no funding authority. Decisions
regarding funding are made by the ITB.
Change Requests
Over 300 change requests
have been identified to date by CATS users, testers, and the Cases Task
Group. Change requests fall into two categories: (1) Defects, which are
problems that cause CATS to operate improperly and affect the accuracy
or integrity of CATS data; and (2) Suggestions, which are intended to
improve the user friendliness and utility of CATS. Several major defects
were identified in systems installed at the test sites. These defects
were fixed in Release 1.1 of CATS prior to deployment to field offices
beyond the six initial test sites. Requirements for Release 2.0,
expected release in November 1999, are being developed based on the
priorities decided by Change Control Board. The Case Task Group is
currently working to prioritize defects and suggestions for inclusion in
future releases. All new releases will need to be backfit in the field
offices before deployment to additional field offices can occur.
Some segments of the
enterprise-wide telecommunications infrastructure are currently
insufficient to support data entry. The current infrastructure was
established as a baseline to provide initial capability. Many segments
can not provide the reliability, availability, and transmission speed to
support data replication and synchronization between Headquarters and
field offices. Replication and synchronization of data from the field
offices to Headquarters will be a slow and risky process unless: 56kb
data communication lines that are part of the wide area network (WAN)
are upgraded to provide better reliability, availability, and a higher
transmission speed; and appropriate technical and administrative
procedures and processes are implemented.
Replication,
transmission, and synchronization of data from 51 geographic locations
to a single location present a risk that can not be quantified at the
current time. The ITB has experienced WAN line outages and intermittent
drops that disrupt data transmission. These outages can cause fatal
errors and corrupt the data being transmitted, which results in the need
for increased system administration and data validation for which
resources are not available. The time frame for resolution of these
issues, given the resource considerations, is unknown. However,
resolution is needed to enable full implementation of CATS.
Feedback
Feedback from field
offices where CATS has been installed has been encouraging and positive.
Field office personnel are beginning to realize the productivity
benefits that CATS provides, and are willing to overlook minor system
errors and problems. Because the features of CATS are tailored to the
functions that field offices perform, CATS is far more useful and
relevant than CHIPS from the field office perspective.
The implementation of
CATS has not been without challenges. There are insufficient personnel
in field offices to populate CATS with the data the system needs to
fully function in the desired time frame. Errors are being made during
the initial entry of case data. The actual error rate is unknown, but
preliminary testing performed by the ITB indicates that the error rate
is significant. The differentiator in the data error rate appears to be
the thoroughness of advanced planning and the degree of discipline
imposed by field offices during the transition phase.
No transition assistance
or resources are being provided beyond initial guidance to field
offices. As a result, field offices are using a variety of approaches
with varying degrees of success in effecting the transition. The CATS
Project Manager plans to develop improved guidance to facilitate more
effective data entry and updating of case data for future deployments.
In addition, a set of tips and best practices is planned for development
and posting on the CATS bulletin board in order to promulgate lessons
learned. Users currently submit questions, comments, or concerns to a
CATS mail box. These messages are reviewed and answered, usually within
four hours. Where deemed appropriate, defects and suggestions are
forwarded to the Cases Task Group for consideration in future releases.
Technical defects are submitted as System Change Requests to the Change
Control Board. The Cases Task Group plans to debrief field offices
regarding their experiences in order to incorporate improvements and
suggestions into plans and guidance for future deployments. The
transition to CATS is a major cultural, business process, and technical
change for the field offices. Additional planning and
post-implementation assistance is needed to support field offices as
they transition from CHIPS to CATS.
Recommendations
We recommend that the
Chief Information Officer:
1.  Develop and
implement an integrated management plan to bring CATS to completion.
A thorough and
comprehensive strategy is needed to identify, integrate, and schedule
all actions necessary to bring CATS to completion and sustain it as an
operational mission-critical system. Given a fixed amount of resources
and an expected level of data integrity, this plan should identify the
sequence, priority, schedule, roles, responsibilities, accountability,
resources, and authority for all actions throughout the NLRB that must
take place in order to successfully deploy, transition, administer,
and sustain CATS as a mission-critical information system. As part of
the planning process, optional approaches for CATS implementation
should be identified and reviewed with senior NLRB leaders so that
commitments can be made regarding the selected approach. Options for
consideration could include the implications of both deploying CATS as
planned and delaying further CATS deployment temporarily until
supporting processes needed to sustain it can be put in place.
Funding, contracting, and deployment strategies need to be developed
for inclusion as part of a CATS strategic plan.
In developing the
strategic plan the CIO should seek input from senior-level
cross-functional employees including the CATS Case Tracking Group,
field offices, offices of the Board and General Counsel, and outside
groups as necessary.
2. Identify additional
transition assistance needed by field offices to ensure data accuracy
and integrity.
Additional assistance
is needed to help field offices prepare for CATS implementation and to
transition fully from CHIPS to CATS. ITB and the Division of
Operations Management could consider assigning an ombudsman to work
closely with each field office to plan more thoroughly in advance for
CATS deployment. Advance planning issues should include reviewing and
planning for management, business process, workload, data entry, and
schedule issues that impact normal operation of the field offices
during CATS deployment. They could also consider appointing ombudsmen
from field offices that have already deployed CATS to serve as
advisors and mentors to other field offices as CATS is being deployed
and implemented.
The CIO should form a
focused and integrated team to review data as it is being entered by
field offices for accuracy and integrity during CATS implementation
and transition. This review is currently conducted on a random and
informal basis by concerned ITB personnel. This effort needs to be
formalized with feedback and assistance provided to the field offices
for corrective action. The team should sample data for errors and work
one-on-one with each field office to promptly correct errors, revise
procedures and processes, prevent reoccurrence, and share lessons
learned with others who face similar issues.
3. Develop and
implement methods to produce Monthly Election Reports and the Annual
Report.
The NLRB will not be
able to produce the Annual Report for Fiscal Year 1999 unless methods
are implemented to merge CHIPS and CATS data. In collaboration with
Agency officials, the CIO should develop a plan of action which
includes milestones; and assign responsibility, accountability, and
authority to a focused and integrated team to design, develop, test,
and implement the capability and processes necessary to produce data
tables required for Monthly Election Reports and the Annual Report.
Management Response
Management did not
disagree with the facts of the findings. They agreed to implement the
three recommendations made in this report, though they have not provided
us with a timeframe for their actions. Their response provided
additional information that was added as appropriate for clarification.
Appendix
UNITED STATES GOVERNMENT
National Labor Relations Board
Memorandum
To: Jane E. Altenhofen, Inspector
General
From: Louis B. Adams, Chief
Information Officer
Date: September 15, 2000
Subject: Comments on Draft IG
Report "Review of Case Activity Tracking"
OIG-AMR-28
Thank you for the opportunity to provide
comments on the report before it is issued in final.
Our comments are attached. We are
available to meet at your convenience should you wish any further
discussion or clarification.
cc: The Board
General Counsel
Director of Administration.
ITB Comments
Draft IG Report
"Review of Case Activity Tracking System"
OIG-AMR-28
We do not disagree with the facts or
recommendations, but because of the review timing, and other conditions
and situations, the draft review resulted in some statements and
findings that need comment or clarification. When the CATS review was
started, ITB indicated that the timing was not consistent with the
application system life cycle process. The review was too late to be a
Design Review and since deployment had just started, it was premature
for a Post Implementation Review. We were in the middle of the FY1999
budget year and the FY2000 budget had already been submitted, so the
timing for a budget review was not appropriate either. Our specific
comments are given below under the same headings as used in the draft
report.
Funding.
Report statement. The implementation
plan for CATS is not aligned with the budget formulation process.
Resources needed to provide the supporting hardware, software, and
communications infrastructure necessary for ultimate success have not
been identified.
Comment. The CATS resources were
identified in all recent budgets: FY1998, FY1999, and FY2000. They may
have appeared to have been unidentified because only $100,000 of the
$600,000 was for non-contract support in FY1998; only $50,000 of the
$1.6 million was for non-contract support in FY1999; and only $225,000
of $2.8 million is for non-contract support in FY2000. The process was
further confused because until recent years, CATS resources were
intermingled with modernization efforts and Y2K initiatives. The budget
formulation is now aligned with the CATS life cycle process; however,
budget adjustments are being made after the agency receives its budget
allowance. This prevents a stable alignment between CATS implementation
and the budget process.
Contractor Employee Turnover.
Report Statement. Budget instability may
have contributed to high turnover of contractor personnel assigned to
the CATS project.
Turnover has contributed to delays in deployment
and slips in the planned schedule to develop solutions for aggregating
field data into a central information repository.
Comment. Although the CATS team has
attempted to develop plans and schedules, no plan or schedule can be
considered definitive until the resources are committed to support it.
The IT budget was cut from $11 million to $5 million in FY1998 and from
$10 million to $9 million in FY1999. This obviously impacted the CATS
resources available and the amount of work that could be done. The
review referenced "delays" and "slips" but until
resources are committed to the project, no dates can actually be
established. The dates did not "slip"; they could never be
established due to budget constraints.
Strategic Planning.
Report Statement. Funding for CATS has
been extremely unpredictable which limited the Agency's ability to
develop credible long-term strategic plans that integrated technical
requirements and financial resources needed. Plans were developed and
executed on a year-to-year basis to reflect the amount of funds
available.
Functions needed to complete the CATS project are not in
place.
Replication for CATS is not yet implemented. Resources
allocated to this task are insufficient to develop the capability for
the level of replication and synchronization needed to support the full
implementation of CATS.
Comment. About 90% of the Agency's
budget is used to pay employee salaries and the space to accommodate
them. The Agency has never had a RIF; it has always used other
alternatives, including reduction in information technology (IT) as a
source of funds to prevent a RIF (as in FY1998) or to obtain funds for
additional hiring (as in FY1999). The Agency's priorities and actions
require IT resources and plans to be very flexible. The review
statements are correct, but it is also correct that the lack of
replication and other functions to complete CATS are deliberate and
reflect the priorities of the Agency and not a failure to plan for, or
implement, CATS.
Deployment.
Review Statement. The ITB originally
estimated that field offices would need between two and three months to
update converted data and load additional case data into CATS.
The
ITB projects that with the advantage of the experience gained in the
initial offices, future field offices will require between four and six
months to update and load additional case data into CATS.
Comment. The initial estimate was based
on what the CATS team thought it would take if the regions efficiently
organized the data conversion and were at proper staffing levels.
Alternatives included using contract support or overtime for the data
loading. Contractors are not being used because of the learning curve
and cost. The availability of the support staffs and limited overtime
resources have not been adequate. For these reasons, the data load time
has been expanded.
Review Statement. Ten Headquarters
offices have case handling information databases tailored for their
unique requirements.
Funds have not been allocated specifically for
this purpose.
Comment. CATS is to be, to the extent
possible, the only database in the Agency for case handling. During
FY2000, a significant part of the $2.8 million requested for CATS is to
create the Headquarters systems that not only will be the corporate
component of CATS, but will also replace these stand-alone databases.
Should there still be a need for any databases other than CATS after the
Headquarters systems are created, they will be created from the FY2001
applications systems budget. They are deliberately not being planned at
this point because the requirements, if any, are not yet known and
because the Agency deferred these systems in order to use $1 million
from the proposed IT budget for other purposes.
Data Integrity.
Review Statement. Data integrity and
accuracy will be used to judge the successful implementation of CATS.
Comment. Data will be entered into CATS
by those who use the system and own the data. CATS is designed to accept
data, process data, and generate reports based on the data. Neither CATS
nor ITB can be responsible for the integrity and accuracy of the data
(beyond some programmed data edit criteria). Any findings or corrective
action about data integrity should be addressed to the organizations
responsible for the data.
Monthly Election Reports and Annual
Report.
Review Statement. Personnel in the ITB
have been assigned responsibility to develop methods and procedures
necessary to combine data from CHIPS and CATS to support production of
these reports, but that work has not been completed because of
inaccuracies found in the CATS data being input by the field offices.
there is no single person charged with oversight of the Annual Report
at the Agency Level.
Comment. Reporting within the Agency is
a problem, but it makes no difference if it is CATS, CHIPS, some other
system, or a manual process. Data is not entered or submitted accurate
enough, complete enough, or soon enough to be as useful as it should be;
however, this is not a CATS issue. It is a data responsibility issue
that needs to be addressed outside CATS and ITB. This applies to all
reporting, including monthly reports, election reports, and the Annual
Report. Reporting responsibility and the data entry requirements for it
have been issues long before CATS, and are independent of CATS and any
other system. This data/reporting issue as well as responsibility for
compiling and publishing the Annual Report should be addressed outside
the CATS review.
Change Requests.
Review Statement. Replication and
synchronization of data from the field offices to Headquarters will be a
slow and risky process unless: 56kb data communication lines that are
part of the wide area network (WAN) are upgraded to provide better
reliability, availability, and a higher transmission speed.
The ITB
has experienced WAN line outages and intermittent drops that disrupt
data transmission.
The time frame for resolution of these issues,
given the resource constraints, is well into the distant future.
Comment. This is an example of
inappropriate timing of the review. Reviewing the WAN back in April and
May is like looking at a house under construction and saying it will
leak if a roof is not put on it. A decision to put a WAN in the Agency
was made only last year. Prior to that, the Management and Information
Systems Branch (predecessor organization to the current ITB) planned to
use telephone lines even though the CATS team and two contractors
recommended a WAN. While the 56kbps lines probably are insufficient for
most locations, they are vastly superior to phone lines, and will be
incrementally replaced as each region comes on line with CATS and as
data traffic statistics become more available. A 56kbps line is about
$300 - $500 per month and a T1 line is about $2,000 per month. A 56kbps
line can be upgraded in about 30 - 90 days. ITB made a conscious
decision to initially deploy 56kbps lines and upgrade as necessary based
on simple economic logic. ITB estimates upgrading lines "just in
time" will save over $500,000. Obviously, this is more time
consuming and complex than installing larger lines initially, but with
such a tight budget, ITB considers this the appropriate choice. Also,
the new FTS2001 contract provides for T1 line costs to approach $500 per
month within a few years. Judicious line upgrading (waiting as long as
possible) has significant budget benefits.
The initial WAN installation was
completed nationally on July 28, 1999. Six major telecommunication hub
sites have already been upgraded from 56kbps to 384kbps (Los Angeles,
Ft. Worth, Chicago, Atlanta, Manhattan, and Washington DC). These six
sites also support 30 other locations. The FY2000 and FY2001 plans and
budget requests reflect the anticipated growth and potential of the WAN.
This, along with the immediate progress since the April - May review
make ITB confident about the future of the WAN.